-   March 17, 2005




Contract Audit Followup
Defense Contract Management
Agency Santa Ana Office's Actions
on Incurred Cost Audits
(D-2005-6-003)




               Department of Defense
           Office of the Inspector General
 Quality             Integrity         Accountability
Additional Copies
To obtain additional copies of this report, visit the Web site of the Inspector
General of the Department of Defense at www.dodig.osd.mil/apo/reports or contact
the Office of Audit Policy and Oversight at (703) 6048760 or fax (703) 604-9808.

Suggestions for Future Reviews

To suggest ideas for or to request future reviews, contact the Audit Policy and
Oversight Directorate (703) 604-8760 (DSN 664-8760) or fax (703) 604-9808.
Ideas and requests can also be mailed to:

                                  OAIG-APO
                    Inspector General, Department of Defense
                       400 Army Navy Drive (Room 1016)
                           Arlington, VA 22202-4704
                             INSPECTOR GENERAL
                            DEPARTMENT OF DEFENSE
                               400 ARMY NAVY DRIVE
                          ARLINGTON, VIRGINIA 22202-4704


                                                                            March 17,2005


MEMORANDUM FOR DIRECTOR, DEFENSE CONTRACT MANAGEMENT
                             --. . - -
                          .A.GF.NCY
                          COMMAVDER, SANTA ANA DISTRICT OFFICE,
                          DEFENSE CONTRACI' MANAGEMENT AGENCY

SUBJECT: Defense Contract Management Agency Santa Ana Office's Actions on
         Incurred Cost Audits (Report No. D-2005-6-003)

We are providing this report for your information and use. This is the first in a series of
reports on Defense Contract Management Agency (DCMA) offices and their actions on
the resolution and disposition of Defense Contract Audit Agency (DCAA) incurred cost
contract audit reports.
Background. This report addresses the DCMA Santa Ana District Office. DoD
Directive 7640.2, "Policy for Follow-up on Contract Audit Reports," February 12,1988,
as amended August 16,1995, implements OMB Circular A-50, "Audit Followup" and
prescribes DoD policies and procedures, including timeframes, for the resolution and
disposition of contract audit reports. Incurred cost contract audit reports showing
$100,000 in cost questioned are required by the directive to be reported and tracked to
achieve timely resolution and disposition. Resolution is achieved when the auditor and
the contracting officer agree on the actions to be taken on audit report findings or when
the contracting officer determines a course of action. Contract audit reports should be
resolved within 6 months of issuance and dispositioned, or closed, as soon as possible
thereafter. Disposition of the contract audit report occurs when the contractor
implements the audit recommendations or the contracting officer's decision, a settlement
is reached, or the contracting officer issues a final decision under the Disputes Clause and
90 days elapse without contractor appeal to the ASBCA. Audit reports are overage if not
dispositioned within 12 months of issuance. Deviations from the established time periods
should be fully justified and documented in the contract file.
Objective. We evaluated the actions taken by DCMA Santa Ana District Office on
DCAA incurred cost contract audit reports with more than $100,000 in costs questioned.
Review Results. Administrative contracting officers at DCMA Santa Ana need to
achieve timelier resolution and disposition of audit reports. address and collect penalties
and interest on expressly unallow~blecosts, ensure accurate amounts are being reported
to DCMA headquarters, and include Contract Audit Followup in performance standards
and rating evaluations.
Management Comments and Reviewer Response. Management concurred with the
recommendations. Comments from the Commander, DCMA Santa Ana were responsive;
therefore, no additional comments are required. Management Comments are discussed at
the end of each recommendation and are included in their entirely at the end of this
report.
        Finding A. Timely Resolution and Disposition of Audit Reports. Contracting
officers at the DCMA Santa Ana District office were not always resolving contract audit
reports within the required six-month period or dispositioning reports within 12 months
as specified in DoD Directive 7640.2.

        Resolution. Of 13 reports we reviewed, five exceeded the six-month requirement
with the longest time to resolution being 11 months. The resolution of an audit report
demonstrates that the ACO understands the issues in the report and has determined and
documented a course of action in accordance with the DoD Component’s prenegotiation
documentation and review procedures. Appendix B illustrates the timeliness of
resolution and disposition by the contracting officials at DCMA Santa Ana.

        Disposition. Contracting Officials had not dispositioned 6 of the 13 reports
within the required 12 months of report issuance or settlement of a qui tam at the time of
our visit in March 2004. Disposition of the contract audit report occurs when the
contractor implements the audit recommendations or the contracting officer’s decision, a
settlement is reached, or the contracting officer issues a final decision under the Disputes
Clause and 90 days elapse without contractor appeal to the ASBCA. Although a qui tam
effected the settlement of 8 reports, all except one was dispositioned within 12 months
after the qui tam was settled. This one report still remains open 15 months after the qui
tam settlement date of June 2003.

         Two of the 6 reports were subsequently closed in September 2004. The 4 reports
still open with cost question of $37 million, on average exceeded the 12-month
requirement for dispositioning the reports by over 15 months. These 4 reports also
contain $2.3 million in expressly unallowable costs. Timely resolution and disposition
ensures the Government recoups unallowable costs including penalties and interest.

        Recommendation. We recommend that the Commander, DCMA District
Office, Santa Ana, California, instruct administrative contracting officers and their
staff to comply with DoD Directive 7640.2 by ensuring contract audit reports are
resolved and dispositioned within the timeframes specified.

        Management Comments. The Commander, DCMA Santa Ana concurred and
stated that the CAFU process, addressed within Santa Ana’s Standard Operation
Procedure contains the resolution and disposition guidance. The CAFU process has been
stressed at periodic meetings with contracting officers and more emphasis and oversight
will continue to be stressed for all DCMA Santa Ana acquisition personnel. In addition,
a training session on the CAFU process will be provided to all ACO’s by June 30, 2005.

       Finding B. Collecting Penalties and Interest on Expressly Unallowable Costs.
In dispositioning two of four reports, contracting officials did not always assess or
address penalties and interest. The result is that penalties and interest on about $192
thousand was not recouped.

               DCAA report 4791-1999C10100373. The price negotiation
memorandum (PNM) dispositioning DCAA report 4791-1999C10100373 incorrectly
cited the DFARS as the reason penalties and interest was not assessed on transportation
costs questioned and sustained of $25,365. The PNM dated 30 September 2003, Note c.
(1) stated:
               DCMA does not agree with DCAA’s penalty assessment
               recommendation. According to the provision of DFARS 231.7002-



                                             2
               3(b), the ACO shall assess penalty when the submitted costs was
               determined to be unallowable for the contractor prior to the submission
               of the proposal, evidenced by a contracting officer final decision which
               was not appealed. Therefore, no penalty should be imposed because
               the Divisional Administrative Contracting Officer (DACO)
               determination that similar costs are unallowable was made after these
               costs were already claimed by the contractor and reviewed by DCAA.

       The PNM statement applies to a Level 2 penalty which is double the amount
claimed because it was determined to be unallowable before the submission. In this
instance, a Level 1 penalty should have been applied and a penalty equal to the amount
claimed of $25,365 should have been assessed. The contracting official misunderstood
the regulation and thus failed to recoup the penalty and interest.

        Additional statements in the PNM raised our concerns about the lack of contractor
supporting records being used as a basis for not applying penalties. In this instance, the
contracting official disallowed part of the claimed costs that was inadequately supported
but stated that the penalty assessment was inappropriate since without the support they
were unable to determine that the costs in question were expressly unallowable. FAR 31-
201-2(d), states the contractor is responsible for accounting for costs appropriately and
for maintaining records, including supporting documentation, adequate to demonstrate
that costs claimed have been incurred, are allocable to the contract, and comply with the
applicable cost principles in this subpart and agency supplements. The contracting
official’s logic in the PNM is flawed. The contracting official’s logic would allow a
contractor to avoid penalties by not providing support if they know the costs are
expressly unallowable. The lack of support for an item that is potentially expressly
unallowable should have the penalty applied unless the support is provided to show the
costs are not expressly unallowable.

        In addition, the contracting official did not assess penalties and interest on
advertising costs of $10,803 that were questioned by the DCAA as expressly unallowable
and indicated in the negotiation memorandum that the contractor concurred. The
contracting official did not address why penalties and interest were not applied. The
statutes and the regulations are specific on the requirement to apply penalties, however,
none were applied.

               DCAA Report 4791-1999B101100340. Although $155,990 in Exhibition
Costs was questioned in the report as expressly unallowable and sustained by the
contracting official, no penalties and interest were applied and the PNM did not address
why no penalties and interest were applied.

        10 U.S.C. 2324(b), stipulates that a penalty shall be assessed if a contractor
submits costs that are expressly unallowable according to the FAR in a proposal for
settlement of indirect costs. The penalty shall be equal to the amount disallowed and
allocated to contracts covered by the provision, including interest. The contracting
officer may apply double penalties if a contractor submits the same type of unallowable
costs in subsequent overhead claims. The head of an agency may issue a waiver from
penalties if one of three conditions exists:




                                                  3
           1. The contractor withdraws the proposal before the formal initiation of an
              audit and resubmits a new proposal;
           2. The contractor demonstrates, to the satisfaction of the ACO, that it has
              established appropriate policies that preclude unallowable costs subject to
              penalties from being included in indirect cost proposals; or
           3. The ACO is satisfied that the unallowable costs subject to penalties were
              inadvertently incorporated into the proposal.

        The FAR Subpart 42.7, “Indirect Cost Rates,” implements 10 U.S.C. 2324(a)
through (d) and covers the assessment of penalties against contractors that include
unallowable costs in final indirect cost rate proposals. If unallowable costs exceed
$10,000, the cognizant contracting officer shall issue a final decision, including a demand
for payment of any penalty assessed unless a waiver is obtained in accordance with the
regulations.

        In the cases discussed, the contracting officials failed to follow the statutes and
assess or address penalties.

        Recommendation. We recommend that the Commander, DCMA District
Office, Santa Ana, California, instruct administrative contracting officers and their
staff to:

               1. Comply with 10 U.S.C. 2324(b) by assessing penalties on expressly
                  unallowable costs.

               2. Require contractors to support their cost submissions or apply
                  penalties to costs the auditor questioned as expressly unallowable.

        Management Comments. The Commander, DCMA Santa Ana concurred and
stated that Santa Ana will continue to stress to contracting officers to make a
determination on penalties within the resolution timeframe and document their decisions.
The current Standard Operation Procedure will be changed by March 30, 2005 to reflect
that ACO’s will obtain an Internal Review and Advisory Council recommendation on
any proposed action involving penalties/interest, and in addition, actions wherein the
ACO has not agreed with the penalty assessment either wholly or in part. In addition, all
ACO’s will receive training on the penalty/interest requirements by June 30, 2005.

        Finding C. Accuracy of Data. The DCMA semiannual report for the period
ending September 30, 2003 contained incorrect cost questioned amounts for nine of the
13 incurred costs audit we reviewed. This occurred because the ACO’s were not
comparing the amounts in the DCAA audit reports with the amounts stated in the DCMA
submission. The costs questioned amount reported should be the total amount questioned
in the audit report, regardless of contract mix or percentage of commercial business that
the reporting contracting official has responsibility and authority to disposition. There
was no documentation showing how the reported amount was determined and why the
differences.

       DCAA audit reports generally contain an exhibit that shows the total costs
questioned. DCAA also provides contracting officials with a monthly electronic
transmission of reports issued during the month that includes the amount of costs
questioned for each report.


                                              4
Although DCAA provides the information, the contracting official is responsible for
determining the amount that is reported in the CAFU system and making changes in the
E-Tools system. The contracting officers responsible for incurred costs audits had not
received adequate training on the E-Tools and were not notifying District officials when
amounts were inaccurate.

Appendix C shows the differences by audit report.

        Recommendation. We recommend that the Commander, DCMA District
Office, Santa Ana, California, instruct administrative contracting officers and their
staff to:

               1. Document the calculation for the amount reported in the CAFU
               system and the reasons for the amount reported.

               2. Obtain Web-Based training from DCMA Headquarters on the
               CAFU E-Tools system and verify and correct data when warranted.

        Management Comments. The Commander, DCMA concurred and stated that
Santa Ana will amend their Standard Operation Procedure by March 30, 2005 and
include a requirement for contracting officers to review and compare questioned costs in
both the audit report and the E-Tools reporting system and to make specific comment (s)
regarding the accuracy of these costs in their file documentation. Where discrepancies
arise, ACO’s will be encouraged to communicate with DCAA to clarify the amounts. In
addition, in accordance with DCMA protocol, Santa Ana has requested training from the
Western District Process Manager and anticipates completion by June 30, 2005.

        Finding D. Performance Standards and Evaluations. Of four Administrative
Contracting Officers reviewed, only one had comments addressing the Contract Audit
Followup function in their standards and performance rating. DoD Directive 7640.2
specifies under section 5.2.4 that the Secretaries of the Military Departments and the
Directors or the Defense Agencies shall “Ensure that performance appraisals of
appropriate acquisition officials reflect their effectiveness in resolving and dispositioning
audit findings and recommendations in a timely manner, while fully protecting the
Government’s interest.”

       The CAFU requirements specified in the directive need to be included in all
appropriate acquisition officials performance standards and evaluations to remind
everyone responsible of the DoD Directive requirements and to recognize those
individuals that are effective in timely resolving and dispositioning audit findings and
recommendations.

        Recommendation. We recommend that the Commander, DCMA District
Office, Santa Ana, California, ensure the CAFU requirement are included in all
appropriate acquisition officials performance standards and evaluations to remind
them of the resolution and disposition requirements and to recognize those
individuals that are effective in timely resolving and dispositioning audit findings
and recommendations.




                                              5
         Management Comments. The Commander, Santa Ana concurred and stated that
the Standard Operation Procedure (SOP) on CAFU has a requirement for ACOslDACOs,
Contract Audit Follow-Up Monitors, Team Leaders, and Commander/Chiefs to have
CAFU performance included in their respective position descriptions and treated as a
critical element. In addition, the SOP states that performance ratings must reflect their
effectiveness in resolving and dipositioning contract audit findings and recommendations.
Flow down reauirements for CAFU were added to the First Line Suoervisor Evaluations
and placed in each manager's Calendar Year 2005 Performance PI&. First Line
Supervisors were directed to include the CAFU requirement as part of the ACO
Performance Plans by January 30,2005 for this year.
We appreciate the courtesies extended to the staff. Questions should be directed to
Mr. Wayne Beny at (703) 604-8789 (DSN 664-8789). See Appendix D for the report
distribution.




                                  w+m&%     P ncia A. Brannln
                                            ~ksistantInspector General
                                            Audit Policy and Oversight
Appendix A. Scope and Methodology
We evaluated the accuracy of the data in the DCMA semiannual reports prepared to
comply with the DoD Directive 7640.2 and reviewed DCMA policies and procedures that
implement the Directive. We judgmentally selected the DCMA Santa Ana office because
there were a significant number of open assignments that appeared to exceed the 12
month requirement and there were closed assignments that noted the possibility of
penalty recommendations. We interviewed DCMA Headquarters personnel and contract
management officials and contracting officials at the District office in Santa Ana,
California. At the Santa Ana location we:

           •   determined whether audit reports were resolved and dispositioned in a
               timely manner by reviewing their chronology of events and ascertaining
               whether the resolution and disposition dates fell within the prescribed
               guidelines—6 months for resolution and 12 months for disposition. We
               identified the reasons for any delays and determined whether the delays
               were justified. For open reports, we evaluated the written plan of action to
               determine if it was reasonable.

           •   evaluated the settlement of each closed reportable audit by examining
               whether settlement documentation was generally prepared in accordance
               with regulations and whether contracting officials addressed all significant
               audit recommendations, provided a rationale for not sustaining any costs
               questioned, and collected applicable penalties. We looked for
               management oversight through review boards or other means.

We performed this review from March 2004 through December 2004.

Use of Computer-Processed Data. DCMA maintains a web-based E-Tool system for
contract followup information, which we relied on. We also relied on computer-based
data from the DCAA Management Information System to identify reportable audits sent
to DCMA for resolution and disposition. Although we did not perform a formal
reliability assessment of the computer-processed data from either system, we did
determine that the assignment numbers, costs questioned, and other relevant data for the
selected audit reports generally agreed with the computer-processed data. We did not
find errors that would preclude the use of the data to meet the audit objectives or that
would change our report conclusions.




                                            7
Prior Coverage. During the last 5 years, the Inspector General of the Department of
Defense (IG DoD) has issued 4 reports related to the Contract Audit Followup process.

IG DoD Report No. D2004-6-006, “Oversight Review of the Naval Sea Systems
Command Contract Audit Followup Process,” July 8, 2004

IG DoD Report No. D-2002-6-009, “The Army Contract Audit Followup Process,”
September 18, 2002

IG DoD Report No. 00-003, “The Air Force Contract Audit Followup System,”
October 4, 1999

IG DoD Report No. 99-057, “Settlement of Contractor Incurred Indirect Cost Audits,”
December 21, 1998

IG DoD Report No. 99-048, “Dispositioned Defective Pricing Reports at the Naval Air
Systems Command,” December 8, 1998




                                           8
Appendix B. Timeliness of Resolution and
            Disposition
Report Number/               Exceeds            Exceeds                 DCAA Report
Report Date                 Resolution         Disposition      Questioned     Expressly
                             6 Month           12-Month         Costs         Unallowable
                           Requirement        Requirement                         Costs
                                By                 By
Open Reports
4511-1999D10100200                                              $7,155,071          $281,135
6/28/2001                      1 ½ months       27 months*
4511-2000D10100300                                              $6,924,838          $1,151,769
6/28/2002                          2                15*
4511-2000B10100400                                              $107,250            $107,250
3/28/2002                          5                18*
4181-1998X10100107                             Closed 9/20/04 $5,680,974             $3,483,731
6/27/2002                                            15
4181-1999X10100002                             Closed 9/2004 $5,143,569              $4,136,536
7/8/2002                                            14 *
4791-2000C10100375                               3 months*      $22,557,243          $770,438
8/20/2002                          3            Qui Tam**
4791-2000B10100004                                              $113,046             $109,903
4/2/2002                                             **
4791-2000C10100373                                              $726,364             $533,794
8/20/2002                          4                 **
4791-2000B10100001                                              $5,540,697           $827,624
4/2/2002                                             **
Closed Reports
4791-1999C10100375                                              $814,505              $312,780
6/22/2001                                            **
4791-199C10100373                                               $546,900               $185,682
6/38/2001                                            **
4791-1999B10100342                                              $877,592                $10,000
2/22/2001                                            **
4791-1999B10100340                                              $5,547,913             $719,426
3/9/2001                                             **
 * Open at date of field visit in March 2004, however, adjusted based on the latest
 semiannual.

** Calculated 12 Months from date of Qui Tam settlement, June 2003.




                                             9
Appendix C. Accuracy of Reported Cost Question

                             Questioned   Questioned Cost –
          Report Number        Cost –          DCMA
                            DCAA Report     Submission
       4511-1999D10100200    $5,862,583      $7,155,071
       4511-2000D10100300    6,924,838        6,924,800
       4511-2000B10100400     107,250         107,250

       4181-1998X10100107    5,680,974        5,974,983

       4181-1999X10100002    5,143,569        5,143,569

       4791-2000C10100375    22,557,243       3,700,635

       4791-2000B10100004     113,046         109,903

       4791-2000C10100373     726,364         726,364

       4791-2000B10100001    5,540,697        5,350,884

      4791-1999C10100375*     814,505         1,720,641

      4791-1999C10100373*     546,900         546,900

      4791-1999B10100342*     877,592         877,592

      4791-1999B10100340*    5,547,913        4,696,383


   * Closed Reports




                              10
Appendix D. Report Distribution

Office of the Secretary of Defense
Under Secretary of Defense (Comptroller)/Chief Financial Officer
   Deputy Chief Financial Officer
   Deputy Comptroller (Program/Budget)
Director, Defense Procurement and Acquisition Policy

Other Defense Organizations
Director, Defense Contract Audit Agency
Director, Defense Contract Management Agency
Commander, Defense Contract Management Agency, Santa Ana

Non-Defense Federal Organization
Office of Management and Budget

Congressional Committees and Subcommittees, Chairman and
  Ranking Minority Member
Senate Committee on Appropriations
Senate Subcommittee on Defense, Committee on Appropriations
Senate Committee on Armed Services
Senate Committee on Governmental Affairs
House Committee on Appropriations
House Subcommittee on Defense, Committee on Appropriations
House Committee on Armed Services
House Committee on Government Reform
House Subcommittee on Government Efficiency and Financial Management, Committee
  on Government Reform
House Subcommittee on National Security, Emerging Threats, and International
  Relations, Committee on Government Reform
House Subcommittee on Technology, Information Policy, Intergovernmental Relations,
  and the Census, Committee on Government Reform




                                          11
Defense Contract Management Agency
Comments




                    13
Amount
Changed in
Appendix B
and C




             14
15
